USAID OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/SOUTH AFRICA’S PERFORMANCE MONITORING FOR
SELECTED INDICATORS APPEARING IN THE FY 2003 RESULTS
REVIEW AND RESOURCE REQUEST REPORT

AUDIT REPORT NUMBER 4-674-02-001-P

NOVEMBER 9, 2001




PRETORIA, SOUTH AFRICA
U.S. AGENCY FOR
INTERNATIONAL
DEVELOPMENT

RIG/Pretoria


November 9, 2001

MEMORANDUM
FOR:              Mission Director, USAID/South Africa, Dirk W. Dijkerman

FROM:             Regional Inspector General/Pretoria, Joseph Farinella

SUBJECT:          Audit of USAID/South Africa’s Performance Monitoring for
                  Selected Indicators Appearing in the FY 2003 Results Review
                  and Resource Request Report, Audit Report
                  No. 4-674-02-001-P

This memorandum is our report on the subject audit. In finalizing this report,
we considered management’s comments on our draft report. We have included
those comments, in their entirety, as Appendix II to this report.

This report contains one recommendation for which final action has been
completed upon report issuance.

I appreciate the cooperation and courtesy extended to my staff during the
audit.




                                                                                 1
Summary of   Our audit of USAID/South Africa’s Performance Monitoring for Selected
Results      Indicators Appearing in the FY 2003 Results Review and Resource Request
             (R4) Report focused on assessing the Mission’s internal controls for
             monitoring performance indicators in accordance with the Automated
             Directive System (ADS) 201 and other relevant guidance.

             Our results showed that for the three indicators tested USAID/South Africa
             generally monitored performance in accordance with ADS 201 and other
             relevant guidance. However, there were exceptions. Data reported in the R4
             report did not always meet the reporting requirements or quality standards
             outlined in the ADS and R4 guidance.

             These issues are discussed in more detail in the Audit Findings section of this
             report.



Background   The Government Performance and Results Act of 1993 (Results Act) was
             passed to improve federal program effectiveness and public accountability by
             promoting a new focus on results, service quality and customer satisfaction.
             The Results Act was expected to improve federal manager’s service delivery
             by requiring that they plan for meeting program objectives and by providing
             them with information about program results and service quality.
             Congressional decision making was also expected to be improved by receipt
             of more objective information on the status of efforts to achieve statutory
             objectives and on the relative effectiveness and efficiency of federal programs
             and spending.

             In 1995, the USAID developed a new reporting system that included the R4
             report. This is the most significant performance report that operating units
             send annually to their respective bureaus. The ADS requires that information
             in the R4 reports is used, as appropriate, for internal analyses, responding to
             external inquiries and USAID-wide results, including Results Act reporting.
             Planning for the annual budget submission to the Office of Management and
             Budget (OMB) involves the incorporation of the operating unit’s R4
             information into an overall program and budget plan for individual bureaus.
             Thus making the R4 report an important aspect to the budget submission to
             the OMB.

             In March 2001, USAID/South Africa submitted its annual R4 report, which
             highlighted the Mission’s significant progress made in fiscal year 2000 toward
             the achievement of its overall strategic objectives and requested resources
             needed for FY 2003. The Mission’s annual R4 report is an assessment report
             that requires managers to: (1) establish performance indicators, (2) prepare
             performance monitoring plans, (3) set performance baselines, (4) collect
             performance data and (5) assess data quality.
                                                                                               2
Audit Objective   RIG/Pretoria, as part of an USAID-wide review, performed this audit to
                  answer the following question:

                         Did USAID/South Africa monitor performance in accordance with
                         Automated Directive System 201 and other relevant guidance as
                         demonstrated by indicators appearing in its FY 2003 Results Review
                         and Resource Request report?

                  Appendix I provides a complete discussion of the scope and methodology for
                  this audit.


Audit Findings    Did USAID/South Africa monitor performance in accordance with
                  Automated Directive System 201 and other relevant guidance as
                  demonstrated by indicators appearing in its FY 2003 Results Review and
                  Resource Request report?

                  For the items tested, USAID/South Africa generally monitored performance in
                  accordance with ADS 201 and other relevant guidance as demonstrated by
                  selected indicators appearing in its FY 2003 R4 Report. However, there were
                  exceptions. Specifically, the Mission did not disclose known data limitations
                  or document data quality assessments in the R4 report. In addition, the
                  Mission reported data that did not meet the quality standards for R4
                  indicators. We selected one performance indicator from each of the Mission’s
                  three largest dollar strategic objectives. Thus, our review covered three
                  indicators. These areas are discussed below.

                  The Mission’s R4 Report Did Not
                  Meet the Reporting Requirements

                  ADS 203, R4 Report Content states, “Any data quality limitations must be
                  noted in either the text or in the notes section of the data table.”

                  ADS 203, Assessing the Quality of Performance Data states that the operating
                  units must document the assessment in the “Comment” section of the R4
                  performance data table. Also, documentation of the assessment should be
                  retained in the strategic objective team’s performance management files.

                  To supplement the ADS, USAID/Washington issued R4 guidance to assist the
                  Missions in preparing their fiscal year 2003 R4 reports.

                  The Performance Data Tables section of the guidance states,

                  “Use the “comment” section of each data table to elaborate on the following:

                                                                                                 3
   •   whether and how the operating unit assessed the reliability of
       performance data provided by others (e.g. contractors, host
       government); and
   •   significant data limitations and their implications for measuring
       performance results against anticipated performance targets.”

The Mission developed individual performance monitoring plans with the
required elements as described by ADS 201 for the selected indicators.
According to ADS 201, Planning for Performance Management, the
performance monitoring plans act as a tool to plan and manage the R4 data
collection process to meet quality standards for R4 reporting. ADS 201 further
outlines required elements, which must be contained in the performance
monitoring plans. One of the required elements of the plan is to describe the
known data limitations, discuss the significance of the limitations in judging
the extent to which goals have been achieved and describe completed or
planned actions to address limitations. Another required element of the
performance monitoring plan is to describe the data quality assessment
procedures that will be used to verify and validate the measured valued of
actual performance.

While the Mission reported the known data limitations and described the data
quality assessment procedures in their individual performance monitoring
plans, the Mission did not disclose known data limitations or document the
data quality assessments in the R4 report, for the selected indicators. Mission
officials stated that, historically, the comment section of the R4 report had
been used to provide a further description of the indicator itself and it was
used in this manner for reporting the fiscal year 2000 performance data as
well.

The first indicator measured the percentage of national local government
legislation that was passed constituting a prerequisite to the final phase of
transition from apartheid to constitutional local government. The performance
monitoring plan disclosed that the indicator did not gauge the quality of a
given law and did not provide information on the enactment of the laws. This
data limitation was not disclosed in the R4 report. While, the quality of the
data was assessed for this indicator at the establishment of the indicator it was
not documented in the R4 report.

The second indicator measured the number of participants from previously
disadvantaged communities that completed professional, occupational and
skill training programs funded by USAID. The data limitation disclosed in the
performance monitoring plan was not disclosed in the R4 report. While, the
Mission stated that the quality of the data for this indicator was assessed at the
establishment of the indicator, it was not documented in the R4 report and
supporting documentation was not retained in the files to validate the
assessment.
                                                                                 4
The third indicator measured the percentage of clinics that had condoms easily
available and could be taken freely. The primary source documentation stated
that the sample size and the sampling methodology were changed in 1999 and
2000. It further stated that direct comparison of the year 2000 data with
previous years’ data should be done with caution because the clinics surveyed
in 1997 (baseline year) and 1999 are different. This data limitation was not
disclosed in the R4 report. The quality of the data was assessed for this
indicator when it was established; however, the assessment was not
documented in the R4 report.

Reported Data Did Not Meet the
Quality Standards for R4 Indicators

The ADS 203, “Quality Standards for R4 Indicators,” states that performance
data reported in the R4 should be as complete, accurate and consistent as
management needs and resources permit. In addition, to be useful in
managing results and credible for reporting, R4 performance data should meet
reasonable standards of validity, reliability, timeliness, precision and integrity.

For one indicator, the Mission reported data in its FY 2003 R4 report that did
not meet the quality standards for R4 indicators.

This indicator measured the number of participants completing education and
training programs funded by USAID. In the R4 report, the Mission
identified the number of participants that completed the training programs, as
well as the data sources used to collect the results. The Mission reported that
1159 participants completed education and training programs funded by
USAID. 97 of the 1159 participants completed scholarship/long-term
training. However, the following errors occurred in reporting the results.

•   The number of participants completing long-term training programs was
    incorrect. The R4 report showed 97 participants graduating from
    scholarship/long-term training; whereas, supporting documentation
    showed 126 participants graduating from the programs. The Mission
    stated that this was caused by a transcription error in the R4 report.
    However, this error affects the validity of the data. ADS 203 states that
    data are valid to the extent that they clearly, directly and adequately
    represent the result that was intended to be measured. Measurement
    errors, unrepresentative sampling and simple transcription errors may
    adversely affect data validity.

•   The data source identified in the R4 report was incorrect. The R4
    identified the data source as grantee’s semi-annual reports. However, the
    grantees’ semi-annual reports did not contain the necessary information to
    report the results for this indicator. The actual data source used were

                                                                                  5
    “replicas” of the performance monitoring plan completed by the grantees.
    The Agency’s guidance, TIPS Number 12, states that the same or
    comparable data collection instruments and procedures should be used to
    ensure that the data is reliable and consistent from year to year.
    Additionally, TIPS 7 states that the operating unit should be as specific as
    possible about the data source so that the same source can be used
    routinely. Switching data sources can lead to inconsistencies and
    misinterpretations.

•   The list of data sources identified in the R4 report was inaccurate and
    incomplete. Two grantees that submitted information for this indicator
    were not identified as data sources and one grantee was erroneously listed
    as a data source. The source is the entity from which the data are
    obtained. ADS 203 states that data are valid to the extent that they clearly,
    directly and adequately represent the result that was intended to be
    measured. Measurement errors, unrepresentative sampling and simple
    transcription errors may adversely affect data validity.

Overall, reporting errors occurred because although a number of people are
involved in the preparation of the R4 data, a complete and independent review
of the information was not made before it was finalized.

Without reporting known data limitations and documenting data quality
assessments in the R4 report, there is a potential for managers to make
inaccurate assessments of the program’s progress.

We believe that instituting a practice to have someone to review or check R4
data before it is finalized and reported will provide additional assurance that
the data is accurate, supported and complete.


Recommendation No. 1: We recommend that the USAID/South Africa
establish a procedure requiring independent reviews or checks to verify
that all data represented in the Mission’s Results Review and Resources
Request reports is accurate in all respects.




                                                                                   6
Management       In response to our recommendation USAID/South Africa developed the
Comments and     following procedure to ensure of the accuracy of all data reported in the R4
Our Evaluation   report or successor document.

                 The Mission Strategic Objective teams will continue to be responsible for
                 collecting and accurately reporting performance data, from primary and
                 secondary sources such as grantees and partners, in the R4 or successor
                 document. The Mission Program and Project Development Office (PPDO)
                 will review and independently verify the data sources and ensure that the data
                 are accurately reported in the R4 or successor document. PPDO also will
                 serve as a repository for data source documents for all performance data
                 reported in the R4 or successor document.

                 On November 1, 2001, USAID/South Africa issued Mission Notice 2001-168
                 implementing the procedure immediately.

                 Based on the foregoing, final action has been completed upon report issuance.




                                                                                             7
                                                                                Appendix I


Scope and
              Scope
Methodology
              Our audit of USAID/South Africa’s controls over performance monitoring
              was performed in accordance with generally accepted government auditing
              standards. The audit focused on assessing the Mission’s internal controls in
              place for monitoring the performance of the selected indicators. This audit
              was part of the Government Management and Results Act (GMRA) audit that
              was conducted USAID-wide.

              Our audit work was limited to the fiscal year 2000 performance data reported
              in the fiscal year 2003 R4 report. The FY 2003 R4 report, which is prepared
              in FY 2001, highlights the Mission’s performance and results achieved by
              each strategic objective in FY 2000. The report also requests resources for the
              next two years based on those performance results. Therefore, we reviewed
              the FY 2003 R4 report. We did not assess the quality of the performance
              indicators or the performance baselines. Furthermore, we did not review and
              our report does not cover the entire R4 report.

              In collaboration with the Mission, we judgmentally selected one performance
              indicator from each of the three largest budgeted dollar strategic objectives in
              fiscal year 2000. The Mission presented 14 performance indicators in the R4
              report for the three strategic objectives. We selected three for review.

              In fiscal year 2000, USAID/South Africa had six strategic objectives with a
              funding level of $47 million. Of the six strategic objectives (SO), the three
              with the largest budgeted dollars were SO1—Democracy and Governance,
              SO2—Education and SO3—Health. SO1 accounted for $11 million or 23
              percent of the $47 million funding level, SO2 accounted for $11 million or 23
              percent and SO3 accounted for $8 million or 18 percent.

              The indicators selected were:

                 1. SO1—Local Government Transformation Policy,
                 2. SO2—Number of learners/trainees completing education and training
                        programs sponsored by USAID, and
                 3. SO3—Condom Availability.

              The audit was conducted at USAID/South Africa in Pretoria, South Africa
              from July 2 – July 26, 2001.




                                                                                            8
Methodology

Our review included reviewing and evaluating the six tools described by ADS
203, Assessing and Learning Tools, which are: (1) performance monitoring
plans, (2) portfolio reviews, (3) evaluations, (4) Results Review and Resource
Requests (R4s), (5) SO close out reports and special studies and (6) data from
outside sources. These tools assist a strategic objective team in gathering and
using information in order to make informed management decisions.

Specifically, we determined whether the Mission developed a performance
monitoring plan for each indicator and implemented the plan in preparing the
R4 report. We evaluated the performance monitoring plans to ensure that it
contained the required elements outlined in the ADS 201. The required
elements included:

•   a detail description of the indicator that set forth all technical elements of the
    indicator;
•   a list of all data sources;
•   the data collection method in sufficient detail to enable it to be applied
    consistently in subsequent years;
•   the frequency and schedule of the data collection;
•   the personnel responsible for collecting the data; and
•   the data quality assessment that was conducted either at the establishment of
    the indicator or within the three year timeframe.

In addition, we reviewed the performance data tables in the R4 report for the
selected indicators to determine whether the Mission:

•   reported data that was adequately supported by source documents;
•   disclosed known data limitations (if any) in the comments section of the
    report;
•   used the data sources identified in the performance monitoring plan;
•   adhered to the schedule of data collection set forth in the performance
    monitoring plan;
•   documented the data quality assessment that was conducted in the comments
    section of the report; and
•   reported data that met the R4 quality standards.

In addition, we reviewed portfolio reviews, evaluations, SO close out reports
and special studies and data from outside sources for the selected indicators.

The performance monitoring requirements of ADS 201 are relevant to the
indicators in the annual R4 reports because those requirements seek to provide
reasonable assurance that data reported meet USAID’s quality standards.



                                                                                    9
An error threshold of plus or minus five percent was used to assess whether
the reported results agreed with source documentation.




                                                                              10
                                                                                                      Appendix II

Management
Comments




U.S. AGENCY FOR
 INTERNATIONAL
  DEVELOPMENT

  October 29, 2001

  Mr. Joseph Farinella
  Regional Inspector General/Pretoria
  U.S. Agency for International Development
  Pretoria, South Africa

  Dear Mr. Farinella,

  USAID/South Africa has reviewed your memo on the "Audit of USAID/South Africa's Performance Monitoring
  for Selected Indicators Appearing in the FY 2003 Results Review and Resource Request (R4).” In response
  to the one recommendation for Mission action, we have developed the following procedure to ensure the
  independent review of data reported in the R4 or successor document "to verify that [they are] accurate in all
  respects."

  The Mission Strategic Objective teams will continue to be responsible for collecting and accurately reporting
  performance data, from primary and secondary sources such as grantees and partners, in the R4 or successor
  document. The Mission Program and Project Development Office (PPDO) will review and independently verify the data
  sources and ensure that the data are accurately reported in the R4 or successor document. PPDO also will serve as a
  repository for data source documents for all performance data reported in the R4 or successor document.

  Should you have any questions or require clarification on this response, please feel free to contact Henderson
  Patrick in the Program and Project Development Office.


                                                                    Sincerely,


                                                                    Dirk W. Dijkerman
                                                                    Mission Director
                                                                    USAlD/South Africa




                                         USAID/South Africa, P.O. Box 55380, Arcadia, 0007
                                             Tel: (012) 323-8869 Fax; (012) 323-6443
                                               Web: http://web.sn.apc.org/unaidsa



                                                                                                                        11
